No. 20-649
lNTHE

$,Upreme <!Court of tbe mntteb $)tates
LEVEL THE PLAYING FIELD, et al.,

Petitioners,
v.
FEDERAL ELECTION COMMISSION,

Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this
26th day of February, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing REPLY BRIEF FOR PETITIONER by placing said copies in
the U.S. mail, first class postage prepaid, addressed as listed below.
Elizabeth B. Prelogar
Acting Solicitor General
of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 34 7-8203

District of Columbia
Signed and sworn to (or affirmed) before me on 26th day of February, 2021.

~RAN~

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

